                                                  NATIONAL SCIENCE FOUNDATION
                                                   OFFICE OF INSPECTOR GENERAL
                                                     OFFICE OF INVESTIGATIONS

                                            CLOSEOUT MEMORANDUM

 Case Number: I08010004                                                                     Page 1 of 1



         From our review of an NSF employee's1 R drive, we identified 166 video and image files
         containing sexually explicit content. Specifically, we identified 52 video files, running between
         24 seconds and 81 minutes in length, and 114 image files of a sexual nature. A review of the
         employee's "favorites" (website links) revealed that many of the websites viewed contained
         sexually descriptive site namesltitles. We also located two copies of Limewire, a peer-to-peer
         file sharing software.

         We interviewed the subject, and he stated he received the inappropriate files and links through
         emails from friends. Based on his actions and admissions, OIG identified violations of the
         current NSF policy regarding Personal Use of NSF's Technology and Communication Resources
         contained in NSF Bulletin No. 04-1 1, as well as, Peer-to-Peer File Sharing Policy contained in
         NSF Bulletin No. 04-15.

         We sent an investigative report to the subject's supervisor2, who proposed a 10-day suspension.
         The deciding official3upheld the proposed suspension, which the employee is in the process of
         serving. Accordingly, this case is closed.




          I
NSF OIG Form 2 (1 1/02)
                                                    Summary

This investigation involves a National Science Foundation (NSF) employee', who acknowledged
to the Office of Inspector General (OIG), that his network drive (R drive)2 contained
inappropriate material. The employee's R drive contained image files and video clips containing
sexual content, as well as, the peer-to-peer file sharing application Limewire. Also, the
employee's website favorites folder contained links to sites with sexually descriptive titles. He
stated that he received the inappropriate files and links through emails from fiiends. Based on
his actions and admissions, OIG identified potential violations of the current NSF policy
regarding Personal Use of NSF's Technology and Communication Resources contained in NSF
Bulletin No. 04-1 1, as well as, Peer-to-Peer Fib Sharing Policy contained in NSF Bulletin No.
04-15.

                                               OIG Investigation

OIG identified inappropriate material on the R drive of an NSF employee. OIG reviewed the
employee's R drive and identified 19,634 image and video files, of which over 166 contained
sexual content including: 52 video files running between.24 seconds and 81 minutes in length
and 114 image files (.jpg extension). The files had creation and access dates dating between
September 2003 and November 2007. A review of the website favorites links indicated that
many websites viewed contained sexually descriptive site namesltitles. The website favorites
links had creation dates dating between April 2002 through October 2007.3

Pursuant to the NSF policy regarding Personal Use of NSF's Technology and Communication
Resources contained in NSF Bulletin No. 04-11 ("NSF's Personal Use Policy"), NSF employees
are authorized to use NSF technology and communication resources for occasional personal use.
However, this policy creates express limitations on personal use, citing the Federal CIO
Council's 1999 Model PolicyIGuidance on ''Limited Personal Use." ("Model Policy"), for
examples of inappropriate uses.

According to Section IV of the Model Policy:

        "Employees are expected to conduct themselves professionally in the workplace and to
        refrain from using government office equipment fo; activities that are inappropriate.
        Misuse or inappropriate use of government office equipment includes...Using
        government office equipment for activities that are illegal, inappropriate, .or offensive to
        fellow employees or the public.. .and.. .the creation, download, viewing, storage,
        copying, or transmission of sexually explicit or sexually oriented materials."




and is accessible only by the individual employ~duserandlor O I R M ~ I Stechnical staff.
  See Tab #6 for sample list of website links saved under "Favorites" and sample list of image fdenames. Note:
sexually explicit material found on the employee's R drive was not provided in this report but is available for review
upon request.
Furthermore, according to NSFYsIT Security "User Responsibilities-Rules of Behavior", an NSF
user agrees to comply with the rules, one of which states the following:

        ". . .I understand that NSF IT resources, including e-mail accounts, are for authorized
        Government use only and in accordance with NSF policy, any activity-that would
        discredit NSF, including seeking, transmitting, collecting, or storing defamatory,
        discriminatory, obscene, harassing, or intimidating messages or material is not
        permitted."

The examination of the files determined that no child pornography existed on the R drive. The
review determined that all of the video and photo image files identified contained subjects that
were adults; there were no indications that any of the images or videos contained underage
subjects. Based on this finding, OIG determined that due to the lack of any criminal violations,
this matter would be handled administratively and not require a referral to the United States
Attorney's Office for review.

In addition to the inappropriate media files and website links, two copies of a peer-to-peer file
sharing software, LimeWire, were found on the employee's R drive. The applications were
downloaded in February 2006 and August 2007. According to NSFYsPeer-to-Peer File Sharing
Policy contained in NSF Bulletin No. 04-15, "The use of peer-to-peer (P2P) file sharing software
program is prohibited on all workstations connected to the NSF network . . . Such programs pose
serious security, legal and reputational risk to the Foundation."

The employee was interviewed4by representatives fi-om the OIG in reference to the files found
on his R drive. Prior to the interview,' the OIG provided the employee with a copy of his
Weingarten rights and a Garrity warnings which were read and signed by the employee. During
the interview the employee acknowledged having obtained the files in question and saving the
pornographic material on his R drive. He stated that he received the files and links fi-om fi-iends
via ernail, but did not use any software to download the files. He explained that he saved the
files to his R drive with the intention of deleting them later but had not remembered to do so.
The employee stated that he forwarded less than five emails containing images to other NSF
employees.

The employee stated that he used the peer-to-peer file sharing software LimeWire to download
music files (.mp3 extension) only; he did not download any images or videos with the LimeWire
~oftware.~ During the interview, the employee stated he downloaded the software in the 1990s;
however, a forensic analysis determined the software was downloaded in 2006 and again in
2007. The employee also stated that he deleted the LimeWire software after attending NSFYsIT
Security Awareness Training a few years ago, during which he learned the software was not
allowed on NSF computers. OIG representatives informed the employee that the LimeWire
software was discovered during the forensic analysis of his R drive in 2008.


 Tab # 1 - Memorandum of Investigation (MOI) - Interview of the Subject Employee, dated April 1,2008.
 Tab #2 - Garrity Warning signed by the employee. This written warning advised the employee that he did not have
to reveal information that might incriminate him (i.e. result in a criminal action against him).
 Tab #7 - LimeWire software files.
The employee stated that he understood that these activities were inappropriate at work. He-
acknowledged that he was familiar with NSF's personal use policy for use of government
equipment and that he has participated in NSF's IT Security Awareness Training annually.7 The
employee voluntarily provided a written affidavit.' Following the interview, the employee sent
an email to OIG stating that he had deleted the inappropriate material fiom his R drive.g OIG
verified that the inappropriate material was removed.

                                               OIG Analysis

Based on the information contained in this report and the employee's admission, OIG concludes
that the employee utilized his NSF computer to visit inappropriate websites, view various images
and videos of a sexual nature, download peer-to-peer file sharing software, and maintain these
files on his R drive. The employee stated that he knew this material was against NSF rules, and
deleted the inappropriate material following his interview with OIG. The employee admitted to
having received, viewed, stored, and forwarded the sexually explicit material, which he stated he
received fiom friends and had intended on deleting. OIG forensic analysis determined that he
placed many of the inappropriate websites in a file folder marked "Favorites" and the file names
had sexually descriptive site narnesltitles with creation dates dating back to April 2002 up
through October 2007. Furthermore, many of the sexually explicit media files had creation dates
between September 2003 and November 2007. Contrary to the employee's statements to OIG
regarding when he downloaded the software, OIG .determined the employee downloaded
LimeWire software in February 2006 and August 2007.

                                             OIG Conclusions

By accessing inappropriate websites and maintaining inappropriate files on his R drive such as
pornographic photos and videos, the employee knowingly violated policies contained in NSF
Bulletin No. 04-1 1, Personal Use of NSF's Technology and Communication Resources, which
states, "Employees may make use of the Internet and electronic mail for matters that are not
official business provided that the following criteria are met: (1) the use does not result in an
additional charge to the government, (2) the use is not offensive to co-workers or the public
{such as sexuallv explicit or .otherwise inappropriate web sites), and.f33)the use is not for
illegal activities (such as gambling or the distribution of copyrighted materialslmedia
through illegal file sharine{peer to peer) or otherwise )." (Emphasis added)

By downloading and maintaining sexually explicit material on his R drive, .the employee violated
NSF's Personal Use Policy by engaging in an inappropriate use expressly cited in the Model
Policy adopted and incorporated by reference, and NSF's IT Security User Responsibilities-
Rules of Behavior.

Through the download o.f the peer-to-peer file sharing software LimeWire, the employee violated
the policies contained in NSF Bulletin No. 04-1 5, Peer-to-Peer File Sharing Policy, which


 Tab #5 - Email listing dates the em loyee completed IT Security Awareness Training.
'Tab #3 - -davit    written b      d     t March 31,2008.
 Tab #4 - Email sent by the employee, dated March 31,2008.
states, "The use of peer-to-peer (P2P) file sharing software programs is prohibited on all
workstations connected to the NSF network."

                                     OIG Recommendations

In reference to the conclusions outlined above, we recommend that the National Science
Foundation proceed with administrative actions that are appropriate and consistent with previous
similar incidents.
                    National Science Foundation
                    4201 Wilson Boulevard, Arlington, Virginia 22230



    Memorandum
    To:

    From:

    Date:           July 30,2O!l6

.   k               ~oticeof Decislon on Proposed Suspension

                                                          a pmposal to suspend you for ten (10)
    On June 24,2008, your s u p e r v i s o r , ~ s s u e d
    calendar days for Misuse of Computer. I was designated as the deciding official on that proposal.    .


    You were advised of your rights to representation and to reply orally and/or in writing to me    .
    within 14 calendar days of your receipt of the proposal. You elected to reply orally. I met with
    you on July 9,2008. You did not dispute the fkts or charges stated in the proposal to suspend.

    I have cmWly considered the matter of your proposed suspension and youf oral response to the
    charge including the fact that you believe the penalty to be too harsh and that you have learned
    from your mistake. I find the charge fully supported and have decided that a ten day suspension
    is warranted for the reasons set forth below.

    In making this determination, I assessed the seriousness of the misconduct. You visited
    inappropriate web sites and stored pornographic images on the kdrive of your government
    computer; You also had two copies of the peer to peer sothare- Limewire on yoiu computer, all
    of which were subsequent to receiving training on lT security. Your decision to visit the'
    inappropriatewebsites as well as downloadingand use of unauthorited software exhibited poor
    judgment.

    Although there is no recotd of past disciplir?aryaction taken against you, 1believe that the
    seriousness of this m&    done warrants the discipline proposed. I am disappointed in your lack
    ofjudgment, but I have not lost confidence in your ability to perform your assigned duties and I
    believe that you have the potential to rehabilitate.

    I have considered that you have &en the IT Security Training annually since 2005. You were
    clearly on notice that your behavior was in violation of NSF policies. Your misconduct p l W
    the NSF Network at risk. The security training particularly emphasizes dangers associated with
    Peer to Peer software and the prohibition of downloading and using it on workstations connected
    to the NSF Network. Your behavior could have had severe consequences such as viruses,
    spyw*? Trojan horses, accidental sharing of the Cdrive etc. .

    I then considered whether there were +ny mitigating oircumstandes. The only circumstance that I
    believe w m t e d any consideration for mitimtion regarded the serious financial imp.@ a loday
    suspension would impose. As a                                          I can understand that such
    a suspension, if it covered 10work days, could have an adverse financial impact.

    I have decided to uphold the penalty that was proposed. In consideration of the financial impact,
    the suspension~will be spread over a period of time using Fridays through Mondays. My decision
    does not in anyway diminish the seriousness of your.actions. Your suspension will be effective .
on Friday, August 1,2008 h u g h Monday, August 4,2008. You rue not to report to work on
August 1 or 4th and you will not receive pay for those days. You wiU not report to work on .
Friday, ~ u g u 22,2008
                k        through Monday, August 25,2008 and you will not receive pay for those
days. The suspension will conclude on August 30 and 31,2008. You should report to-work at
your normel time on Tuesday, September2,2008. A persormel action reflecting the suspension
will be placed on the permanent side of your Ofticid Personnel Folder.

 re  misconduct will be dealt with severely and may result in penalty up to and including your
removal fiom Fedehl service.

If you believe that you have a personal problem that is impacting your conduct, please be advised
that the Foundation has an Employee Assistance Program (EAP) available that might be able to
provide assirnce. You can contact our EAq provider, Corn, bc., at 202-628-5 100. Please
understand that you alone are ultimately responsible for your conduct and performance.
In accordance with Article XVI of the Collective Bargaining Agreement, you may'p w n t a
grievance at any time after receipt of this decision, but not later than twenty-five (25) calendar
days aibr teceipt. Your grievance must begin as an informal grievance and may be presented
either orally or in writing.

If you believe this action was motivated in whole or in part by discrimination because of your
race, color, reli'gion, sex, age,national origin, pb~icalor mental disability, or reprisal for prior
EEO activity, pursuant to 29 CFR Part 1614, you may fde a complaint about this action with the
National Science Foundation Office of Equal Opportunity Programs. Ifyou decide to file a
discrimination.complaint about this action, you must bring your allegation(s) of discriminationto
the .attention of an EEO counselor within forty-five (45) calendar days ofthe effective.date of this
action.

If you have any questions about your rights or the procedures involved in this action, you q a y
contact




CO:   m
      Employee Relations       .
      OFF
                                           Science Foundation




Date:                June 24,2008

To:


From:


Subject:             Notice of Proposal to Suspend
                     M ~ S Jof
                             S~Computer

This is notice that I am proposing to suspend you from duty without pay for ten (10)
calendar days from your position of                                   'The reason for this
proposed suspension is Misuse of your Government Computer. The relevant facts are as
follows:

'The Office of the Inspector General (OIG) conducting proactive random audits, conducted
an audit on a National Science Foundation (NSF) Computer used by you. Based on
findings during the audit, the OIG issued Investigative Report Case Number 108010004 on
 May 12,2008. The report concerned inappropriate material on the R: drive of your
 government computer. The investigation revealed that your R:drive contained 19,634
 image and video files of which over 166 were inappropriate image and video files containing
 sexual content including: 52 video files running between 24 seconds and 81 minutes in
 length, and 114 image files. The files had creation and access dates between September
 2003 and November 2007. A review of ,the website favorites links indicated that many
 websites contained sexually descriptive site names or titles. The website favoriies were
 created between April 2002 and October 2007. In addition to the inappropriate media files
 and website links, two copies of a peer to peer file sharing software, Limewire were found
 on your R:drive. The applications were downloaded in February 2006 and August 2007.

You were interviewed by Special ~         g       e      n        t April 1,n2008. Prior to
the interview, you were provided with a copy of your Weingarten rights and a Garrity
Warning which.you read and signed. In the interview, youwere shown a listing of all lems
stored on your R:drive containing image, video and music files.

'The following list some, but not all items found on your R: drive:
Angels Nude Africa Black Sex images movies and erotic stories www.nudeafrica.com

BBW Personal Ads Plus Size Dating Sexy Ads Personal httr>i/bbw.sexvads.net

BBW Sex Blog www.bbw-sex-bloa.com
Big Ass Forum- Only BBW big asses & preggos
Indexhttpihigass.pornwebring.net1phpbbndexphp

Big Booty Links htt~:/hiabootvlin
                                k.bfoas~ot.com
Black Swingers Club.com www.blackswinaersclub.com/index.~hb

Curvy women captured on video! The women of blackstreetbbwand Jonas's Candid Curvy
Captures www.blackstreet.bbw.com

and t h i c k m . t hicktv.comfixl.hm.

At the conclusion of the interview, you provided a written and signed affidavit in which you
stated under oath, 'I was informed on March 31*, that I had inappropriate files on my
computer. - I received these files through friends sending me the files and saving them to my
R:drive. All Idid was save them there with no -intentionsof viewing them and haven't
accessed them. Iwas going to delete them because they was taking up space but forgot
and became busy. I also was going to delete them because Itook the IT training and in the
training it said not to have any inappropriate material on computer. Ijust never got arol~nd
to take it off. I don't sit at my desk and watch pictures or movies at all. 'The mistake I made
was forgeting (sic) to delete the pictures from my folder. Ididn't have no intent on viewing
or accessing them. When I received the pictures, Ijust forward them. I usually access the
internet for music and have a lot of music files. Idon't watch inappropriate material on my
cpu during work. Once friends send me files, then I send them to my R: drive. Since
meeting Iam aware of the procedure and will comply with NSF policies and delete them
ASAP. I don't access no porn, sites or anything of that nature but mainly music.
Sometimes when I go to music pages and click on the links, it will take me to another site.
A lot of the pics I received from friends that's all and don't go to the sites. I didn't know the
effect of this log has pics being on their and will remove them."

On May 21,2008, 1 met with you and your union representative to discuss the investigative
report and its findings. Prior to the interview, I provided with a copy of the investigative
report for your review. Ispecifically asked if you visited inappropriate websites, viewed
various images, photographs, and videos of a sexual nature and maintained them on your R
drive.

You responded, 'Yes, I did. They were stored on my R drive. I have friends who send me
stuff and sometimes Ijust forward them to my R drive. I have no intention of viewing them."

Iasked if you understood that this behavior violated NSF policies regarding the personal
use of NSPs communication resources by using NSF computer as stated in NSF Bulletin
04-11.

You responded, "Yes. It was my intent to delete them, but Ijust didn't have time. I was
doing my work. It's not like I'm sitting there looking at this stuff. It was back in 2006 or
2007. The thing is- Ideleted it. Well, I though 1 deleted it. I didn't download no porn or
anything like that. Just music. Ithought Ideleted it though. Iwasn't using it."

I asked if you downloaded Peer to Peer Software.

You replied, "Yes, I sure did. But after Iwent through ,thetraining. I deleted it."

I asked if you completed the annual IT Security Training.
You stated, "Yes, I sure did."

When I questioned if you understood that downloading Peer to Peer Software was
prohibited.

You replied, "Yes, I sure did, That's why at the the, I deleted it. Ididn't know there was
two copies on it."

Based on your admittance in the interview conducted with the Office of Inspector General
and your admittance in the interview conducted by me, I find that you violated the NSF
policy on Peer to Peer File Sharing and the policy on Personal Use of Technology and
Communication Resources. Both policies are sited in relevant part.

       NSF Bulletin No. 04-15
       January 11,2008
       ADMINISTRATION AND MANAGEMENT

       SUBJECT: Peer-to-Peer File Sharing Policy

       1.0 Abstract
       The use of peer-to-peer (P2P) file sharing software programs is prohibited on all
       workstations connected to the NSF network unless the NSF Chief InformationOfficer
       (C10) or his or her designee grants prior approval for such use. Such programs pose
       serious security, legal and reputational risk to the Foundation.

       2.0 Scope
       This policy on peer-to-peer file sharing applies to all NSF employees, contractors,
       IntergovernmentalPersonnel Act (IPA) assignees, Visiting Scientists, Engineers, and
       Educators (VSEEs), and others who have access to or are responsible for an
       account on any workstation that connects to any NSF network.

       3.0 Purpose
       The purpose of this policy is to inform users of the NSF networks that installation or
       use of Internet based peer-to-peer (P2P) file sharing software poses a serious
       security risk to the Foundation. Use of P2P may also present legal and reputational
       risks to the Foundation if notification of a copyright violation is received. P2P traffic
       also consumes disproportionate network bandwidth and impacts the ability of the
       Foundationto offer services to its customer and facilitate daily work. It is not the
       intent of this policy to hinder innovative peer-to-peer technologies.

       6.0 Enforcement
       NSF will monitor its systems and networks for compliance wi.ththis peer-to-peer file
       sharing policy. Unauthorized peer-to-peer software installed on your NSF
       workstation or any other system attached to the NSF network will be removed.
       Multiple instances of peer-to-peer software installed on your NSF workstation will be
       referred to your supervisor and may result in disciplinary action. NSF reserves the
       right to remove any workstation with inappropriate file shares from the NSF network.
Individuals who infringe on copyrights are responsible for any legal costs, fines or
settlements


NSF Bulletin No. 04-11
(Revision 1)
November 3,2004
~  D - ~ i ~ i $AND  ~R  K~oN
                       MANAGEMENT

SUBJECT: Personal Use Policy for NSF Technology and Communication
Resources

Scope
This policy applies to all NSF personnel, contractors, and visitors who have access
to
NSF equipment, computing services, or communication systems.

Policy
The technology and communication resources specified below are authorized for
occasional personal use (excluding private business use) when the additional cost to
the government is negligible and when the personal use is of reasonable duration
and during personal time as much as possible so there is no interference with official
business. NSF employees should consult with their supervisor if there is any
question about "occasional" use or 'negligiblen costs. Any personal use of the
agency's property is subject to the overriding expectation that employees will give
the government a full day's labor for a full day's pay. Personal use should not
compromise the security or operability of NSF systems. In addition, employees are
responsible for ensuring that they do not convey the false impression that they are
acting in an official capacity when they are using government office equipment for
non-government purposes. This personal use policy is part of a broader range of
policies that addresses acceptable use of agency resources. NSF employees should
refer to these policies for additional information at
www.inside.nsf.gov/oirrn/ci~trt~ecuiilpolicies.m.Employees are also reminded
the general standards of employee conduct remain in effect and are outlined in NSF
 Manual 15 (NSF Corlflicts of Interest and Standards of Ethical Conduct). A
supervisor or component may limit or revoke personal use of agency resources for
any business reason.

Internet Access and Electronic Mail Systems:
Employees may make use of the lnternet and electronic mail for matters that are not
official business provided that the following criteria are met: (1) the use does not
result in an additional,charge to the government, (2) the use is not offensive to
coworkers or ,the public (such as sexually explicit or othewise inappropriate web
sites), and (3) the use is not for illegal activities (such as gambling or the 2
distribution of copyrighted materialslmedia through illegal file sharing [peer to peer]
or ot henvise).
Throughout both interviews, you claimed that the inappropriate files were sent to you by
friends, that you had no intention of viewing them, and that it was your intent to delete them.
These claims do not diminish the seriousness of your actions. Downloading and storing
inappropriate material, specifically that of a sexual nature is just as serious as viewing the
files. Maintaining large files on your computer compromises the efficiency of the network,
causing delays, congestion and disruption of service. You knowingly and repeatedly
saved files wlth inappropriate.titleson government equipment,. You created a.-Favorite
folder titled Adult Items and saved Internet Shortcuts with names such as of Adult Toys,
Breast Enhancement, Buy Adipex and Viagra, Diet PilIs, Penis Enlargement, and Personals
in that folder.

Your claim that you had no intention of viewing these files is simply not believable. Your
actions demonstrate that you did everything possible to preserve the existence of these files
(receiving emails from an outside source with inappropriate titles and saving them in a
Favorite folder you created called Adult Items). To claim that it was your intent to delete
them if you had ,the time is just not plausible. It would have taken less time to delete the
files upon receipt than to save them on your computer. I also find your claim that you
deleted the Peer to Peer Software "Limewire" from your computer after receiving IT training
not credible. You completed the Online Annual IT Computer Security Training on August 9,
2007, an Instructor led training on September 7,2006, and on-line on August 25,2005. The
latest creation date for "Limewire" found on your computer was November 30,2007 which
was well after any of the'lT Training that you received. In summary despite receiving IT
training on three separate occasions you still made a conscious choice to engage in
computer misuse by visiting sexually explicit sites and downloading unauthorized softwaie.

I find your actions to be unacceptable. My confidence in your ability to perform your
assigned duties is questionable at best which is a particularly serious matter because trust
between and employee and supervisor is an essential ingredient of an effective working
relationship. While I am hopeful that the disciplinary action proposed will serve to be
corrective, I am clearly skeptical because it took the OIG investigationto halt your behavior
in spite of the training that you previously received and your awareness that your behavior
was inappropriate. I am hopeful that you will regain my confidence in your ability to perform
your assigned.dutieswithout concern that you will deviate from appropriate workplace
behavior.

Based on the above, I believe that proposing this ten (10) calendar day suspension is the
minimum level of discipline appropriate to this offense. I am not confident that any lesser
form of discipline would be effective.

You are warned in the strongest terms possible that any similar behavior or act of
misconduct on your part will result in more severe disciplinary action being taken against
you.

This notice is a proposal and not a final action. You have the right to reply both orally or in
writing or both and to furnish affidavits and other documentary evidence in support of the
answer. You have the right to reply within fourteen (14) calendar days after the date you
receive this proposal. You have the right to be represented by an attorney or other
representative. You have the right to a reasonable amount of official time. You have the
right to review the material which is relied upon to support the reasons for the action given
    orally, please contact

    w     i      l    l carefully review this proposal notice, the material upon which the -
    proposal is based and consider any reply made by you or your representative before
    makinga witten decision. You will remain in duty status during the notice period of the
    proposed action.

    If a decision is made to effect the suspension, you have the right to file a grievance under
    the provisions of the Collective Bargaining Agreement.

    If you believe a personal problem has contributed to or caused your inappropriate behavior,
    I urge you to make an appointment with an Employee Assistance Program (EAP)
    Counselor. This is a confidential program, and you may reach a counselor by calling the
    COPE at (202) 628-5100 to schedule an appointment. Recommending EAP is solely to
-   advise you of the availability of assistance. Llltimately you are responsible for correcting
    your conduct.

    If vou have anv auestions reaardina vour riahts'or the ~roceduresused in this matter. vou
                                                                           Division of     man




    I acknowled.ge receipt of this document.



                                                                b\,2 L!    ) 0%
    Signature                                                 Date
